Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




 MEDICARE PREPAYMENT                   REVIEW: 


 MSP PROCEDURES AT CARRIERS 





                Richard  P. Kusserow
                INSPECTOR   GENERAL

                     OEI-07-89-01683
              EXECUTIVE                         SUMMARY
PURPOSE

To evaluate the procedures used by Medicare carriers to identify primary payment
sources other than Medicare.

BACKGROUND

This inspection is part of an initiative to examine the effectiveness of Medicare
carriers’ prepayment utilization review processes.

Until 1980, Medicare was the primary payer of health care costs for Medicare
beneficiaries except when the beneficiary is covered by a worker’s compensation
program or the Veterans Administration. Congress became concerned about
significant increases in the cost of the Medicare program. As a result, between 1980
and 1986 Congress passed a series of statutory provisions requiring certain private
insurers to pay medical claims before Medicare (See Appendix A).

These provisions created new functions for Medicare contractors. They are
responsible for screening, identifying, and verifying claims for other insurance
involvement. In addition, contractors are required to make recoveries when
Medicare has paid improperly.

In line with Health Care Financing Administration (HCFA) efforts to reduce
program administrative costs, the budget for MSP functions at Medicare Carriers was
reduced by approximately 37% from FY 1989 to FY 1990.

METHODOLOGY

We selected a sample of seven Medicare carriers for review based on high and low
volumes of claims processed. An inspection team conducted field visits to each
carrier. We interviewed the manager and/or supervisor of the MSP units of each
carrier in our sample. Additional documentation collected during this review was
used to support and verify information gathered during these interviews. This
documentation included published materials, claims forms, monthly in-house MSP
savings reports, and HCFA-1564 savings reports.

FINDINGS

Carried budgetsfor MSP activitk    were reduced by 37% for FY 1990.

Can-km made signijicant staff reductions to cope with the MSP budget reduction.


                                            i
Most carriers do not recover overpaymenl~folhvhg   identi&ation of MSP sihatkms.

Representatives from five of seven carriers in this review told the review team that
they are conducting no MSP recovery activities. Representatives from the two
remaining sample carriers indicated that they are recovering overpayments on a
selective basis. These carriers recover those cases that have greatest potential for
savings and only do so within their current operating budget.

Ihe HCFA’S “required hz.# list does not inc&    the recovery of MSP overpaymena.

Incoruk%n&3    exist in metho& used to iZen@ and calctdde savings.

RECOMMENDATIONS

lk HCFA should conhhue to pursue ditionul j&ding to ensure that can&m restore
operations of the MSP units to a level at least equivalent to FY 1989.

llae HCFA should con&h the development of a kkgidutiveproposal that would allow
them to conhct demonstration programs to evaluate incentives designed to enhance the
idendjkation and recovery of inappropriate MSP payments.

We present several options for how these demonstration programs could be
structured. By implementing one of these options we estimate that additional savings
could range from $199 million to $361 million.

The HCFA should modij, the CPEP standad to evaluate caniem on their MSP
idedjication and recovery @or&.

Tlze HCFA should provide clear and un$om proceduresfor counthg MSP savings.



The HCFA did not concur with the recommendations presented in the draft report.
In response to the first recommendation, the HCFA points out that they will fund
the MSP units as much as the current budget allows. Also, previous proposals for
legislative changes to allow incentive programs have been unsuccessful, and they feel
the CPEP is appropriate for evaluating MSP functions.

We continue to believe a higher level of funding is necessary. However, we have
modified the first and second recommendations to encourage HCFA to continue to
pursue additional funding and an initiative to test an incentive program. Also, the
HCFA should evaluate the carriers’ MSP units on more specific criteria.

The HCFA’s verbatim comments are included in Appendix E.


                                          ii
                        TABLE                        OF              CONTENTS

EXECUTIVE          SUMMARY                  .......................................                                      i

INTRODUCTION..                  ............................................                                             1

   Purpose ..................................................                                                            1

   Background..            ..............................................                                                1

   Methodology ...............................................                                                           3

FINDINGS       ...................................................                                                   4

RECOMMENDATIONS                        .........................................                                     8

AGENCY       COMMENTS                  ........................................                                     11

APPENDIX       A: MSP LEGISLATION                           ..............................                         A-l

APPENDIX       B: PREVIOUSLY                    PUBLISHED               REPORTS                 ................   B-l

APPENDIX       C: PRIORITY               LISTS         ................................                            C-l

APPENDIX       D: INCENTIVE                 PROGRAM OPTIONS ...................                                    D-l

APPENDIX       E: AGENCY COMMENTS                                ............................                      E-l
                         INTRODUCTION

PURPOSE

To evaluate the procedures used by Medicare carriers to identify primary payment
sources other than Medicare.

BACKGROUND

This inspection is part of an initiative to examine the effectiveness of Medicare
carriers’ prepayment utilization review processes.

History of M&are    Secondary Pqer (MSP) Rxwbions

Medicare helps pay medical costs for approximately 28 million people aged 65 and
older and approximately 3 million disabled people. Medicare Part A covers inpatient
hospital services, home health services, and other institution-based services.
Physician, outpatient hospital, and various other health services are covered by
Medicare Part B.

The Health Care Financing Administration (HCFA) is responsible for ensuring
compliance with Medicare legislation and regulations. Private insurance companies
contract with HCFA to process and pay Medicare claims. These contractors are
known   as fiscal intermediaries (Part A) and carriers (Part B).

Until 1980, Medicare was the primary payer of health care costs for Medicare
beneficiaries except when the beneficiary is covered by a worker’s compensation
program or the Veterans Administration. Congress became concerned about
significant increases in the cost of the Medicare program. As a result, between 1980
and 1986 Congress passed a series of statutory provisions requiring certain private
insurers to pay medical claims before Medicare.

These provisions require private insurers to pay medical claims primary to Medicare
when the beneficiary has other health insurance coverage by an employer group
health plan (EGHP), a disabled beneficiary’s LGHP, a spouse’s EGHP, or
automobile, no-fault, or liability insurance (see Appendix A for details of these
provisions). After the private insurance company pays up to its coverage limits,
Medicare reimburses remaining covered services subject to coinsurance and
deductible limits.




                                            1

Implimmmionof      MSPl?zwi&ns

These provisions created new functions for Medicare contractors. They are
responsrble for screening, identifying, and verifying claims for other insurance
involvement. In addition, contractors are required to make recoveries when
Medicare has paid improperly.

The HCFA provides contractors with procedures and instructions to identify primary
payment sources. When a Medicare claim is submitted, the contractor searches MSP
history files for coverage by another insurer. The most widely used contractor
procedures for identifying MSP situations include

0      developing leads from HCFA’s “Y-trailer” codes;

0      screening information included on the claim form;

0      querying data in the Regional Data Exchange System (RDES);

0      developing the first claim filed by or on behalf of a beneficiary; and

0	     reviewing all claims containing medical diagnosis codes indicating trauma--to
       identify injuries related to automobile or work-related accidents.

These procedures helped save approximately $2.2 billion in FY 1989 by identifying
primary insurers. However, HCFA actuary estimates, Office of Inspector General
(OIG) inspections, and audits by the OIG and the General Accounting Office (see
Appendix B for a list of previously published reports) have confirmed that additional
savings are possible through improvements to current MSP identification and
overpayment recovery systems. The OIG has estimated, based on a random sample
of Medicare beneficiaries, that Medicare lost in excessof $600 million in FY 1988
due to unidentified primary payment sources.

The carriers’ FY 1990 budgets for MSP activities was significantly reduced from the
FY 1989 level. The HCFA actuary estimates that the Medicare program lost
approximately $900 million in FY 1990. The current estimate of Medicare program
losses due to failure to identify primary payment sources and recover inappropriate
Medicare payment has increased to $1.3 billion for FY 1991.

Evaluation of Contractors

The HCFA establishes MSP savings goals for all contractors. The carriers and
intermediaries calculate and record all savings resulting from MSP situations. These
savings are reported to HCFA on a monthly savings report (HCFA-1564).



                                            2

Contractors are evaluated on achievement of the MSP savings goals as part of their
Contractor Performance Evaluation Program (CPEP).

The HCFA establishes four types of MSP savings.

0	    Cost avoided MSP claims are those the carrier returns without payment
      because there is strong evidence that another insurer is the primary payer.

0	    Full recoveries are defined as savings from claims that were paid by a private
      insurance company, relieving Medicare of all payment liability.

0	    Partial recoveries are those situations when the primary payer’s payment only
      covers part of the Medicare allowable charge. In this situation Medicare pays
      the remaining amount up to what Medicare has allowed.

0	    Pending claims are those where MSP has been verified but all funds have not
      been recovered.

MEMODOLOGY

We selected a sample of seven Medicare carriers for review based on the volume of
claims processed. Six of the sample carriers have high volumes of claims processed
and one is considered low volume. The sample carriers include: Blue Shield of
Massachusetts-T&State; Blue Shield of Florida, Inc; Blue Shield of Indiana; Blue
Shield of Texas, Inc.; Blue Shield of Colorado; Arkansas Blue Cross & Blue Shield,
Inc.; and Blue Shield of Kansas City.

We visited each carrier to obtain information about the effects of the FY 1990
budget reduction. We obtained data about the effects the reduction had on staff size
and numbers of claims processed. In order to learn what procedures the carriers
have established to handle MSP claims with reduced resources, we conducted
interviews with the manager and/or supervisor of the MSP unit at each carrier. A
second interview was conducted with the staff member most familiar with the budget
process and budget issues.

In addition, we selected a random sample of 30 claims from the MSP savings log or
equivalent computer generated report at each carrier. This sample was selected
from the claims processed during the fourth quarter of FY 1989. These claims were
analyzed and followed through the MSP development process to the HCFA-1564
monthly savings report. The carriers provided documentation to support the MSP
savings claimed on this report.




                                          3

                                       FINDINGS 


THE FY 1990 MSP BUDGET REDUCTlON

caniers’ budgetsfor MSP acdvities were reduced by 37% for FY 1990.

The carriers’ FY 1990 budget for MSP activities was significantly reduced from the
FY 1989 level. Table 1 presents a summary of contractors’ budgets for the last three
fiscal years. The entire budget reduction was applied to carriers. In fact, the
intermediaries budget actually increased by 5.7%.

The return on investment (ROI) figures calculated by HCFA represent the ratio of
program dollars saved as compared to administrative dollars spent. These figures
illustrate that MSP activities are cost effective.


                                                  Table 1

                       Contractor Budgets and Return on Investment

                                           for MSP Activities



                        FY 1988            m*       FY 1989           ROI    Fy1990        m**

INTERMEDIARIES          $31,508,823        45:l      $32,800,966      so:1   $34,672,890   52:l

CARRIERS                  $34,598,000           13:1 $38,300,000      14:1   $28,1oo,ooo   22:l
                  -----------------------------~~~~--~~~-~~~~~
                  ------_----------------------
TOTAL                     $66,106,823                   $71,100,966          $62,772,890
*       ROI = Return on Investment
**      The ROI figures for 1990 represent eight months


Carriers made sign$cant staff reductions to cope with the MSP budget reduction.

The most visible result of the reduced MSP budget is that it forced carriers to make
significant staff reductions. These reductions made it impossible to maintain all MSP
activities at the levels of prior years.

The following graph illustrates the staff reductions at the seven sample carriers for
FY 1989 to 1990. These carriers reduced their Medicare-funded full time equivalents
(FIEs) for MSP functions by 63%. In order to maintain adequate operating levels,


                                                       4
                                     FINDINGS 


THE FY 1990 MSP BUDGET REDUCTION

caniers’ budgetsfor MSP activih        were redked by 37% for FY 1990.

The carriers’ FY 1990 budget for MSP activities was significantly reduced from the
FY 1989 level. Table 1 presents a summary of contractors’ budgets for the last three
fiscal years. The entire budget reduction was applied to carriers. In fact, the
intermediaries budget actually increased by 5.7%.

The return on investment (ROI) figures calculated by HCFA represent the ratio of
program dollars saved as compared to administrative dollars spent. These figures
illustrate that MSP activities are cost effective.


                                               Table 1 


                      Contractor Budgets and Return on Investment 


                                      for MSP Activities 




                       FY 1988         JuJI*    FY 1989        ROI     Ey1990         ROI**

INTERMEDIARIES         $31,508,823     45:l     $32,800,966    5O:l    $34,672,890    52:l

CARRIERS              $34,598,000   13:1 $38,300,000         14:l      $28,100@0      22:l
                  ======================---------      -------__-------------
TOTAL                 $66,106,823           $71,100,966                 $62,772,890
*       ROI = Return on Investment
**      The ROI figures for 1990 represent eight months


Canien made significant staff reductions to cope with the MSP budget reduction.

The most visible result of the reduced MSP budget is that it forced carriers to make
significant staff reductions. These reductions made it impossible to maintain all MSP
activities at the levels of prior years.

The following graph illustrates the staff reductions at the seven sample carriers for
FY 1989 to 1990. These carriers reduced their Medicare-funded full time equivalents
(FTEs) for MSP functions by 63%. In order to maintain adequate operating levels,


                                                  4
employees from two sampled carriers told us that they were receiving financial
support from their private business. The data presented in the graph below does not
reflect this support.


               Staff          Reduct         ions       for       MSP Operat                 ions
                       Tota    I FTE ‘S at             7 Sampled            Carr     iers
         ,40 -.___________________.....................
                           12;____________________.................................................................................

         120


         100

          80


          60

          40

          20

           0
                                  1989                                      1990


                                         I     FTE'S    IN km   UNIT



      63% reduction                in    MSP staff


The budget reduction in FY 1990 will have long term effects on the operation of the
carriers’ MSP units. The budget proposal for FY 1991 includes a five million dollar
increase for carrier MSP activities. Respondents indicated that this increase will not
allow the carrier to “catch up” on a year’s backlog created from operating without
sufficient personnel. Carriers would use additional funds to recruit and train new
personnel.

When questioned about the effect of the budget cut, one typical manager said, “It
will be several years before we rebound from this budget cut. Recruiting and
training someone from off the street takes a long time.” Another typical manager
commented, “We were forced to lay off efficient employees. The work we do in the
MSP unit is complicated and the learning curve for these tasks is very large.” We
heard these and many similar comments at all sample carriers.

Most carriers do not recover overpaymentsfollowingidentijicationof                   MSPsituutions.




                                                       5

When carriers identify and develop potential MSP situations through the usual
sources (i.e. first claim development, RDES, “Y-trailer” codes, etc), they deny MSP
claims and count the MSP savings from this denial on the HCFA-1564 savings
report. However due to the budget and staff reductions for FY 1990, the carriers do
not conduct further MSP development or initiate recoveries on claims previously paid
by Medicare. These unassessedprogram losses are in addition to the OIG’s current
estimate of losses due to the MSP provisions. These new losses have been created
by the carriers’ inability to continue MSP operations at the same levels prior to the
budget reduction.

Representatives from five of seven carriers in this review told the review team that
they are conducting no MSP recovery activities. Representatives from the two
remaining sample carriers indicated that they are recovering overpayments on a
selective basis. These carriers recover those cases that have greatest potential for
savings and only do so within their current operating budget.

When asked what development and recovery action is taken on claims that may have
been inappropriately paid by Medicare, respondents indicated that they were being
stored in boxes and file cabinets. The inspection team observed these claims
firsthand at alI seven sample carriers. Carrier representatives said that these
recoveries will be made when, or if, additional funding and development staff
become available.

We asked respondents from the carrier’s MSP staff if they knew or could estimate
the value of the inappropriately paid claims waiting to be recovered. No one could
provide an adequate count or estimate of the number and/or value of these claims.
However, all indicated that if this substantial amount was recovered, it would
accelerate the carriers’ progress toward their MSP savings goal.

A recent audit conducted by the OIG Office of Audit Services has also verified this
backlog of claims. Additional inspection work could provide an accurate estimate of
the lost savings.

Ilk HCFA ‘s ‘required task” lid does not include the recovq of MP ov~is.

The aggressive collection of debts due the United States Government is required by
statute and regulations, these regulations include the Federal Claims Collection Act
and 4 CFR 102.1. Despite these requirements, HCFA has not placed emphasis on
the recovery of overpayments resulting from previously unidentified primary payment
sources.

In November 1989, correspondence from HCFA provided carriers with MSP claims
processing and development priorities for coping with the budget reduction. These
priorities are divided into two lists (see Appendix C). The first list contains


                                          6

“required tasks” and the second includes those tasks that should be undertaken “to
the extent that funds are available.” Recovery of MSP overpayments is not included
on the “required task” list and is the third of four items on the second list. The
decision on how much time and effort the carriers expend to make recoveries is left
to the carrier’s discretion.

The carriers are not directly evaluated on the various methods used to identify and
recover overpayments. This is evidenced by the absence of a CPEP performance
standard to specifically evaluate the carriers’ effectiveness in implementing the
various procedures for identifying MSP situations or recovering MSP overpayments.
Currently, the only criteria used to evaluate the performance and effectiveness of the
MSP units are based on achievement of the pre-established MSP goals.

MSP SAVINGS      ISSUES

Incorzsirt~    exist in meti    used to identif and calcuh-ztesavihgs.

The HCFA calculates MSP savings goals for all contractors at the beginning of each
fiscal year. The HCFA has issued instructions and procedures explaining the
methods that should be used to calculate MSP savings. However, carriers are not
counting and calculating these savings uniformly, and some of the savings being
counted are questionable.

0	     The HCFA procedures do not require carriers to query for deductible status
       when calculating savings. This allows carriers to count a deductible amount
       paid by the beneficiary as MSP savings. The deductible amount is not savings
       because the beneficiary would pay this amount in any situation. Four sample
       carriers were not completing such queries but were claiming deductible
       amounts as savings. Three sample carriers were querying for deductible status
       but were not counting the deductible as savings.

0	      The HCFA allows carriers to count savings when an outside source pays a
        claim as the primary payer and the carrier is informed of this payment by an
        outside source (i.e. insurance company or physician’s office). These savings
        are counted by some carriers even though no claim is submitted to the carrier.
        In this situation, savings amounts must be estimated by the carrier because
        they do not pass through the carrier’s system. Four of the sample carriers
        were counting these situations as savings. Three sample carriers were not
        counting these situations as savings.




                                            7

                   RECOMMENDATIONS

Y%eHCFA shouhi conthe to pursue ackdithnul fiurding to ensure that caniers restore
operations of the MSP units to a kvel at kast equivalent to FY 1989.

The FY 1990 budget reduction for MSP activities has affected carriers’ ability to
handle the MSP workload. Carriers face a huge backlog of potential MSP recovery
cases with reduced staffing and funding. In order to effectively identify and recover
all possible MSP situations, the carriers must use all procedures available to them.
Restoring the MSP unit’s operational efforts to the levels of the prior year will help
carriers utilize current procedures to identify and recover as many MSP savings as
possible.

To accomplish this, it might be necessary to restore appropriations to previous levels.
An alternative would be to provide the funding out of savings captured by each
contractor. The next recommendation provides details of this option.

Ihe HCFA should cons&~ the dkveibpment of a legislam)eproposal that wou.kZallow
them to conahct denwnstration program to evaluate incentives des@ed to enhance the
idbijicaation and recovery of inappropriate MSP payments.

Many sources have established that Medicare funds continue to be lost due to
unidentified primary payment sources. An incentive program would provide the
carriers an opportunity to increase Medicare savings while supplementing their
operating budget. This incentive program should not supercede current MSP
requirements and procedures. Carriers would be required to maintain all educational
efforts at the current level.

For implementation of this type of program, a legislative change is necessary.
Sections 1814 (b) (1) and 1814 (b) (3) (A) of the Social Security Act require
contractors be reimbursed only for the “reasonable cost” or “customary charge” for
the services rendered. If an incentive program is implemented as a demonstration
project, it might be necessary to modify this law.

Current MSP procedures are cost effective. This is illustrated by the data presented
in Table 1 on page 4 of this report. Medicare is currently saving 13 to 22 dollars for
every dollar spent for operations at the carriers’ MSP units. As long as these return
on investment figures remain positive, an incentive program will be cost effective for
the Medicare program.

The following options describe some of the many possibilities for this incentive
program. By implementing one of these options, we estimate that additional savings
could range from $199 million to $361 million. We suggest that HCFA evaluate


                                           8
these options for demonstration programs and determine appropriate reimbursement
percentages for these incentives.

OPTION AZ The HCFA could allow participating carriers to use five percent of all
savings they identify during the year to increase their ability to identify MSP
situations. These payments would not be included as part of the carriers’ contract
budgets.

OPTION B: The HCFA could allow participating carriers to use five percent of all
savings identified during the year plus an additional two percent of all savings from
recoveries made on claims that were previously paid inappropriately. As in Option
A, these payments would be used by the carrier’s MSP unit to finance part of their
activities. This option would provide additional funding to aggressively collect
inappropriate payments.

OPTION C: The HCFA could allow participating carriers to keep a total of five
percent of identified savings. Three percent would be used by the carrier’s MSP unit
to finance collection efforts. ~The remaining two percent could be an incentive
payment used in any area of the Medicare operation or be retained as profit. This
option could provide an even greater incentive to the carriers because they would
have more flexibility in utilizing these incentive payments.

OPTION D: The HCFA could allow participating carriers to keep twenty-five
percent of the savings carriers identify and/or collect above their established MSP
savings goal. This option provides an incentive for carriers to continue to
aggressively pursue all potential MSP caseseven after the yearly MSP savings goal is
achieved. As in Option C, 60 percent of these payments would be used to finance
collection efforts, the remaining 40% would be an incentive payment.

[See Appendix D for an estimate of potential savings to the Medicare program
should one of these incentive options be implemented.]

In order for any of these incentive systems to be effective, the method of measuring
achieved savings must be reliable. The next two recommendations address this
problem.

l%e HCFA should mod@ the CPEP stand&& to evaluate camkrs on their MSP
ident@ication, recovery, and educational ej$orts.

The only criteria for the MSP portion of the CPEP evaluation is the achievement of
their MSP savings goal. If the carriers achieve 90 percent of their savings goal, they
receive 100 points toward their CPEP evaluation. However, the carriers are not
evaluated on their compliance and efficiency in conducting MSP identification and
recovery activities.


                                           9

The recovery of overpayments created by not properly identifying primary payment
sources other than Medicare is not a priority for the carriers. This results in a
substantial loss to the Medicare program. The CPEP standards should be modified
to emphasize the importance of identifying and recovering these overpayments.

Ihe HCFA should prvvide clear and un$om pm&a         for counting iUSP savihgc

We found inconsistencies in the methods used to identify, count, and report MSP
savings. We recommend that HCFA clarify the procedures currently used to count
and report these savings.

We are not recommending a specific method, but we do recommend that the
procedures used by all carriers be consistent.




                                         10 

                    AGENCY                 COMMENTS

The HCFA did not concur with the recommendations presented in this report. The
HCFA’s verbatim comments can be found in Appendix E.

We believe it is necessary that carriers operate at a level at least equivalent to FY
1989. We understand that this requires additional funding and that this decision is
not completely in HCFA’s control. However, we feel the HCFA should continue to
actively and aggressively pursue this additional funding. We have modified the first
recommendation to clarify our position.

We believe that an incentive program would enhance the carrier’s motivation to
aggressively identify MSP situations and recover overpayments. We recognize the
legislative implications for establishing a program such as this, but feel the potential
benefits in the form of savings to the Medicare program would justify the efforts in
this area. We have modified the second recommendation to encourage HCFA to
pursue the necessary legislative changes to make such a demonstration program
possible.

We realize that 10 percent of the carriers’ CPEP evaluation is devoted to MSP
functions. However, the only criteria for this evaluation is the percentage of the
savings goal that is achieved by the carrier. The carriers are not evaluated on the
efficiency and/or compliance with the MSP procedures described in the carriers’
manual. We continue to believe that a percentage of the CPEP evaluation should
be devoted to areas other than simply achieving their MSP savings goals.

The fifth finding in this report discussesinconsistencies in methods of counting and
reporting savings. These inconsistencies are partially due to differing interpretations
of the procedures. The HCFA should assure that all procedures are conducted
uniformly among the carriers.

The report has been modified to agree with HCFA’s FY 1989 and 1990 budget
figures for MSP activities.




                                            11 

                    AGENCY                COMMENTS

The HCFA did not concur with the recommendations presented in this report. The
HCFA’s verbatim comments can be found in Appendix E.

We believe it is necess         carriers operate at a level at least equivalent to FY
1989. We understand             requires additional funding and that this decision is
not completely in HCFA’s         01. However, we feel the HCFA should continue to
actively and aggressively pur    this additional funding. We have modified the first
recommendation to clarify o

We believe that an incentive pro        would enhance the carrier’s motivation to
aggressively identify MSP situations     recover overpayments. We recognize the
legislative implications for establishi   program such as this, but feel the potential
benefits in the form of savings to the      icare program would justify the efforts in
this area. We have modified the set          commendation to encourage HCFA to
pursue the necessary legislative changes t      ke such a demonstration program
possible.

We realize that 10 percent of the carriers’ CP      valuation is devoted to MSP
functions. However, the only criteria for this          n is the percentage of the
savings goal that is achieved by the carrier. The c         are not evaluated on the
efficiency and/or compliance with the MSP procedur          scribed in the carriers’
manual. We continue to believe that a percentage o            PEP evaluation should
be devoted to areas other than simply achieving thei

The fifth finding in this report discussesinconsistencies in thods of counting and
reporting savings. These inconsistencies are partially due       ring interpretations
of the procedures. The HCFA should assure that all proce        s are conducted
uniformly among the carriers.

The report has been
figures for MSP activities.




                                           11
                             APPENDIX             A

                 MEDICARE     SECONDARY         PAYER    LEGISLATION


TITLE OF            PUBLIC      ENAcThlENT         EFFECTIVE
LAW                 LAW         DATE               DATE        DESCRIPTION

Tax Equity          97-248      09-03-82          01-01-83     TEFRA made Medicare
and Fiscal                                                     benefits secondary
Responsibility                                                 if the employee or
Act of 1982                                                    spouse is age 65
0                                                              through 69 covered
                                                               by an EGHP and the
                                                               employer has at
                                                               least 20 employees.

Deficit             98-369      07-18-84          01-01-85     DEFRA broadened the
Reduction Act                                                  definition of
of 1984                                                        working spouse by
WFRA)                                                          including spouses
                                                               age 65-69 of
                                                               employed individuals
                                                               under age 65, thereby
                                                               removing the lower
                                                               age limit.

Consolidated        98-272      04-06-86          05-01-86     COBRA further 

Omnibus Budget                                                 broadened the 

Reconciliation                                                 definition of 

Act of 1985                                                    working aged by 

(COBRA)                                                        removing the 

                                                               limitation of age
                                                               70 and older.

Omnibus             99-509      10-21-86          01-01-87     OBRA made Medicare
Budget                                                         items and services
Reconciliation                                                 secondary for
Act of 1986                                                    payment if the dis-
(OJ=4                                                          abled beneficiary or
                                                               spouse is working
                                                               and covered under an
                                                               EGHP.




                                       A -1 

                              APPENDIX                 B

                     PREVIOUSLY        PUBLISHED       REPORTS

1.    Priority Audit Memorandum - Survey of the Tax Equity and Fiscal Responsibility Act
      of 1982 - March 7, 1984, Control Number: ACN-03-42009

2.    Medicare Secondary Payer Provision End-Stage Renal Disease - Program Inspection
      Report - August 24, 1984, Control Number: l-07-4001-14

3.    Medicare Secondary Payer Provision End-Stage Renal Disease - South Dakota -
      November 20, 1984, Control Number: l-08-4009-14

4.    Medicare Secondary Payer Provision End-Stage Renal Disease - Colorado - December
      4, 1984, Control Number: l-08-4001-14

5.    Medicare Secondary Payer Provision End-Stage Renal Disease - Program Inspection
      Report - April 3, 1985, Control Number: l-07/08-4002-14

6.    Medicare Secondary Payer Provision Automobile Medical and No-Fault Insurance -
      North Dakota - May 1, 1985, Inspection Control Number: 03-08-5001-14

7.    Program Inspection of Medicare as a Secondary Payment Source for Beneficiaries
      with End-Stage Renal Disease in the State of Oregon - May 10, 1985, Inspection
      Control Number: 3-10-4008-14

8.    Medicare as Secondary Payer for Medical Services Related to Automobile Accidents
      in Massachusetts -June 1985, Control Number: l-01-4105-31

9.    Medicare as a Secondary Payer for Medical Services Related to Automobile Accidents
      in Massachusetts - Boston - June 1985, Control Number: l-01-4105-32

10.   Report by the Comptroller General of the United States. The Congress Should
      Consider Amending the Medicare Secondary Payer Provisions to Include Disability
      Beneficiaries - September 30, 1985, Control Number: GAO/HRD-85-102

11.   Medicare Secondary Payer Provision Automobile Liability and Medical Insurance -
      State of Missouri -Program Inspection Report - December 1985, Control Number: 3-
      07-5001-32

12.   Medicare Secondary Payer Provision Automobile Medical and No-Fault Insurance -
      State of Colorado - Program Inspection Report - December 1985, Control Number:
      3-08-5002-14



                                          B-l
13.   Medicare Secondary Payer Provision Credit Balances in Medicare Beneficiary Hospital
      Accounts, Control Number: OPI-85-070-040

14.   Medicare Secondary Payer Provision Working Aged in Missouri - July 1986, Control
      Number P-07-86-00079

15.   Medicare Secondary Payer Provision Working Aged in Colorado - July 1986, Control
      Number: P-07-86-00071

16.   OIG Audit Report - Medicare Overpayments for Services Provided to Beneficiaries
      with End-Stage Renal Disease - April 28, 1987, Control Number: A-10-86-62003

17.   OIG Audit Report - Retirees of Exempt State and Local Governments Could Cost
      Medicare $12.8 Billion over the Next 5 Years - September 10, 1987, Control Number:
      CIN A-09-86-62050

18.   Amending the Medicare Secondary Payer Provision for ESRD Beneficiaries Could
      Save the Medicare Program $3 Billion Over the Next 5 Years - December 1, 1987,
      Control Number: CIN-A-10-86-62016

19.   Medicare as a Secondary Payment Source - End-Stage Renal Disease - January 1988,
      Control Number: OAI-07-86-00092

20.   Medicare as a Secondary Payment Source - January 1988, Control Number: OAI-07-
      86-00017

21.   Medicare as a Secondary Payment Source: Medicare Beneficiaries Covered By
      Employer Group Health Plans - February 1988, Control Number: OAI-07-86-00091

22.   Nationwide Review of Medicare as Secondary Payer for the Period September 1, 1983
      through November 30, 1985, Control Number: CIN A-10-86-62005

23.   Medicare: Incentives Needed to Assure Private Insurers Pay Before Medicare -
      November 1988, Control Number: GAO/HRD-89-191

24.   Management Advisory Report: Medicare as Secondary Payer -- A Restitution
      Proposal, Control Number: AO-12-89-00002

25.   Management Advisory Report: More Complete Employer Group Health Plan
      Information is Needed to Administer the Medicare Secondary Payer Program, Control
      Number: A-09-89-00100

26.   Draft Management Advisory Report: MSP Survey - Contractors Questionnaire,
      Control Number: A-09-89-00151


                                         B-2 

27. 	   Management Advisory Report: Medicare Secondary Payer: Unrecovered Funds (OEI-
        07-90-00764)




                                          B-3 

                                 APPENDIX                   C


             PRIORITY       LISTS FOR CARRIERS’             MSP ACDVITIES”


Required tasks

1. 	   Process prepayment recoveries. These recoveries should be processed for ongoing
       operations such as Working Aged, Workers’ Compensation, Automobile Medical,
       Liability and No-fault, End Stage Renal Disease, and disabled.

2. 	   Develop first claims submitted by a disabled individual and the first claim submitted
       by individuals ages 65 and 66. The results of the development must be incorporated
       into the regional data exchange system (RDES).

3. 	   Operate and maintain the standardized software systems, and participate fully and
       completely in the RDES.

Tasks that should be comolete to the extent that funds are available

1.     Develop any new leads in any MSP area.

2. 	   Process suspected cost avoidance claims (claims with 7” trailers or indications of
       other insurance coverage from the RDES).

3. 	   Recover mistaken prior payments or provide recovery information to lead contractor
       as appropriate.

4.     Maintain outreach activities at the FY 1989 level.

*      These priorities were communicated to HCFA regional offices in November 1989.
       Carriers were often notified verbally of these priorities but written notification was not
       uniform. Some carriers were never provided with these priority lists.




                                              C-l
                                APPENDIX                  D

                         INCENTIVE         PROGRAM        OPTIONS


The following example represents potential savings to the Medicare program if an incentive
program is established. All calculations are based on national figures for FY 1989 (the most
recent fiscal year).

Return on Investment (ROI) for carriers (prior to FY 1990 reductions) = 14:l

Total Savings by carriers = $554,920,413

OPTION A:

Total Savings X Reimbursement Rate = Payment to Carriers

$554,920,413 X .05 (5%) = $27,746,020

The savings of over $27 million would be used by the carriers to supplement their MSP
activities. The following calculation illustrates total Medicare program savings that could be
achieved if this program is implemented.

Incentive payments to Carriers X ROI - Payment to Carriers = Potential Medicare
Program Savings

@27,746,020 X 14) - $27,746,020 = $360,698,269

Even if the ROI decreased with increased expenditures, as long as it remains positive the
program will remain cost effective.

OF’TION B:

This option would provide additional funding to encourage carriers to make recoveries on
the backlog of claims created by the FY 1990 budget reduction.

Savings for this option would equal the savings in Option A plus recoveries made on claims
that were previously paid inappropriately. This potential savings is unknown because there is
no accurate count or estimate of these potential recoveries.




                                             D-l
OPTION    c:

This option provides an added incentive to the carriers to use a portion of the funds in any
area of the corporate operation.

Total Savings X Reimbursement Rate = Payment to Carriers

$554,920,413 x   .03 (3%) = $16,647,612 (to supplement MSP unit activities)

$554,920,413 x   .02 (2%) = $11,098,408 (incentive payment)

Payment to Carrier X ROI - Payment to Carriers = Total Medicare Savings due to
Incentives

($16,647,612 X 14) - ($16,647,612 + $11,098,408) = $205,320,548


OPTION D:

Total Savings - FY 1989 Savings Goal = Amount Saved Above Goal

$554,920,413 - $447,109,000 = $107,811,413

Amt. Saved Above Goal X Reimbursement Rate = Payment to Carrier

$107,811,413 X .15 (15%) = $16,171,712 (to supplement MSP unit activities)

$107,811,413 X .lO (10%) = $10,781,141 (incentive payment)

Payment to Carrier X ROI - Payment to Carrier = Total Medicare Savings due to
Incentives

(Sl6,171,712 X 14) - ($16,171,712 + $10,781,141) = $199,451,115




                                            D-2 

APPENDIX        E

AGENCY   COMMENTS




         E-l
.- .            .                                                         .
                                                                                   Health Care
                                                                                   Financing Administration
            DEP.QRTMENT             OF h’EAL.TH 6   HCMAX SERVIC=

                                                                                   Memorandum-.
            .
  Date              WI? 181954
  From              Gd R. Wilertsky, Ph.D.+ 3
                    Administrator
  Subjec:
                    OIG Dra5 Re?crt - “Medicare Prepayment Review: MSP Procedures at
                    Carriers”, OEI-07-89-01683

                    The Inspector GeneraI
                    Office of the Secretary


                           We have reviewed the subject draft report which concerns the
                    efrtziveness ci Medicare carriers’ prepayment utiIiz3tion retiew processesused
                    to Zen@ &k&are Szcandary Payer (X5P) situations. The report focxscd
                    mainIy cn the Fkal Year (m) 1990 MSP budget redtxrion for &ie<icare
                    Uriiers.

                           OIG recsmmends that KCFX ensure that wrriers restore operatiocs cf
                    MS? units to a Ieve! equiv&nt to Fk’ 1989, con&xc: e,@oratot-J dr.TocsZ3don
                    projects to e*r-iuaze
                                 .=       incentives to enhanc­0 carrier identificaricn and recovey
                    efforts, modi& the Contractor Pttiormance EvaIuation Program &PEP)
                    standards to k;aluare wrrks on their MSP efforq and modiiy HCFA
                    proctdures fcr counrin_eMS? savings. E=CF)\ does not cancur with 01:‘s
                    recommendacicns. Our specific cammerits on the repcc’s recommendancns are
                    attached for your consideration.

                          Tnank you for the opportunity to review and comment on this drafi
                    reporL Please advise us whe*Lheryou aFe,0 with our position on the repon’s
                    recommendations at your earliest convenience.


                    Attachment




                                                    .   .
                                                                              .I




       .
                                                                    : ’
.                   _Commentsof the Health Care Financing Administration
               (HCFA) on the OIG Draft Remti - “Medicare Prenavment Review:
                       pVrSPProcedures at Carxiers”. OEI-074961683



         Recommendation 1

         HCFA shouid ensure that carriers restore operations of the MSP units to a
         level at least tquivaIent to FI( 1989.

         Ruuonse
                                                    .
         HCFA does not cmxr. Part B MSP funding was S3S.3 miXion for Fy 1989.
         FY 1990 Part B MSP funding was increased to $28.1 xnii~on from S22? miion
         when funds were allocated from )ICFA’s contingency fund. However, Parr B
         MSP fundizg fcr FY 1991 is $26.8 miXion. The MSP funding level reflects tie
    .	   budgetary cansrraints faced by HCFA and the entire Federal government.
         ECFA is ho&      to be abie to more adequate!y fund the carrier MSP fuzczion
         in FY 1992 and 1993,but cannot enstire that this wiX happen.



         E=CFA should conduct demonstrarion progrms evaluating incentives to enhance
         tie idemificstion and recovery of inappropriate MSP payments.

         Resuonse

         HCFA dces not concur. The report included several suggestionsfor
         demonsrraticns, and all the suggestionsproposed that carriers keep a portion of
         the recovered funds. OIG correctly noted that the primary obstacIe to offering
         cash incentives is that this is contrary to current law. HCFA’s past attempts to
         cbtain the necessarylegislative changeto implement this recommendation have
         been unsuccessful.

         Recommendation 3

         HCFA SbouId modiQ the Contractor Performance Evaluation Program (CPEP)
         standards tc evafuate carriers on their pV[SPidentification, recovery, and
         educational efforts.


                                                .
.                .
                                                                                                                ,
     4-              :...
    .       ..          -   -




    i                           Page 2



                                IiCFA does not concur. HCFA already evaluatescarriers’ procedures for
                                identifying MSP situations. There is a total of 1000 points in CPEP. Of this
                                total, 100 points of CPEP arc devoted solely to evaluating the COII~~~CZOK’
                                petiormanct of their MSP fimti~~~~. HCFA believes that to allocate more
                                than 10 percent of CPEP to MSP would not be appropriate. The current
                                criteria used in the CpJ3 review include the essenceof all of .the elements
                                OIG has recommended be included in CPEP. We also wish to note that we
                                plan to use the Common Working File reports to evaluatk Carrier identiEcation
                                of MS? situations.                        .

                                Recommendation 4

                                ECFA shdd provide ckar and uniform procedures for counting MSP savings.
                                                                                                                :0
                                Rtmonse

                                ECFA aIr:zdy provides uniform proctdures for counring MS? SW&S. The
                                instruc5ons are found in Section 13458cf the bledicare Cxier Manual, and in
                                Section 3899 of the Lxe:incdiary IvfanuaI. Savingsare vaiidated during the
                                annual perfcrmance of CPEP. If contractors are found to bc reporting sabtigs
                                incorrectly, the CPEP scores are adjusted. Then, corrective action steps are
                                cutlined and controIIed by HCFA regional offices.

                                Technical Comment

        .                       In Table 1 of page 4 of the repcn, OIG states that the carriers’ MSP budget
                                for FY 19E49was S37,579,565. Our figures show that $38.3 miXon was
                                budgeted for the carriers’ MSP function for FY 19S9. Also the carriers’ b1SP
                                budget for FY 1990 was $28.1 miXon, not $21,271,700.




                                                                                             .



                                                                          _:-
                                                                           .
